<html>
<title> - IRANIAN BACKED MILITIAS: DESTABILIZING THE MIDDLE EAST</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





         IRANIAN BACKED MILITIAS: DESTABILIZING THE MIDDLE EAST

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 4, 2017

                               __________

                           Serial No. 115-64

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______


                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-062PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

























                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM R. KEATING, Massachusetts
DARRELL E. ISSA, California          LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
BRIAN J. MAST, Florida               BRADLEY SCOTT SCHNEIDER, Illinois
THOMAS A. GARRETT, Jr., Virginia




















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Michael Knights, Ph.D., Lafer Fellow, The Washington Institute 
  for Near East Policy...........................................     8
Mr. Aram Nerguizian, senior associate, Burke Chair in Strategy, 
  Center for Strategic and International Studies.................    21
Kenneth Pollack, Ph.D., resident scholar, American Enterprise 
  Institute......................................................    53
Ms. Melissa Dalton, senior fellow and deputy director, 
  International Security Program, Center for Strategic and 
  International Studies..........................................    69

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas, and chairman, Subcommittee on Terrorism, 
  Nonproliferation, and Trade: Prepared statement................     4
Michael Knights, Ph.D.: Prepared statement.......................    10
Mr. Aram Nerguizian: Prepared statement..........................    23
Kenneth Pollack, Ph.D.: Prepared statement.......................    55
Ms. Melissa Dalton: Prepared statement...........................    71

                                APPENDIX

Hearing notice...................................................    96
Hearing minutes..................................................    97
The Honorable Ted Poe: Material submitted for the record.........    98

 
         IRANIAN BACKED MILITIAS: DESTABILIZING THE MIDDLE EAST

                              ----------                              


                       WEDNESDAY, OCTOBER 4, 2017

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2200 Rayburn House Office Building, Hon. Ted Poe (chairman 
of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order.
    Without objection, all members may have 5 days to submit 
statements, questions, and extraneous materials for the record 
subject to the length limitation in the rules of the committee.
    I will make my opening statement at this time.
    The Middle East continues to pose some of the biggest 
challenges to United States national security. Where there is a 
threat to our interests in the region we can be sure that Iran 
and its proxy forces and militias are somewhere in the 
neighborhood.
    From Yemen to Afghanistan, Iranian arms can be found in the 
hands of some of the most dangerous actors. This is part of a 
calculated strategy by the mullahs in Tehran to assert control 
over the entire region by expelling the United States.
    The Iranians believe they are entitled to dominance over 
anybody else in the region. They provide weapons and support to 
sectarian individuals who commit atrocities and undermine 
legitimate government institutions.
    In Syria, Iraq, Lebanon, Yemen, Bahrain, and the 
Palestinian territories, Iran backs violent actors who either 
rule through brutality or aspire to seize power by eliminating 
political opposition.
    Many of these groups have been household names for years. 
Hezbollah in Lebanon is the most prominent one. Nurtured by 
Tehran since the 1980s, Hezbollah has grown from a band of 
insurgents who perpetrated the 1983 Beirut Marine Corps 
barracks bombing to a well-armed and funded terrorist state-
within-a-state that does Iran's bidding around the globe.
    Its clever use of propaganda, civil service, and political 
participation have made Hezbollah the dominant force in 
Lebanon. Its power in the country undermines United States' 
relationship with Beirut and poses a significant threat to our 
friends in Israel.
    Increasingly, we see Hezbollah operatives going beyond 
Lebanon and carrying out the will of its Iranian masters 
everywhere. From training rebels in Yemen to directly 
contributing to the slaughter in Syria and preserving Assad's 
oppressive regime.
    Now Iran has multiple ``Hezbollahs'' it can call on to kill 
and coerce throughout the region. Funded by sanctions relief 
granted to Iran under the JCPOA and enabled by America's 
retreat over the past 8 years, Iranian-backed groups are 
seizing territory, cajoling governments, and hindering our 
effort to defeat ISIS and al-Qaeda.
    Our troops and Foreign Service officers and intelligence 
personnel who are trying to help Iraqis, Syrians, and Kurds 
fight ISIS have been repeatedly threatened by Iran's many 
opportunities in Iraq and Syria.
    In May, United States air strikes stopped an Iranian-backed 
militia that was advancing toward our troops in Syria. A month 
later, U.S. aircraft shot down two Iranian-made drones that 
tried to attack coalition forces.
    It is important to remember why bloodshed in this part of 
the world continues to endure. It was Tehran's sectarian 
influence that poisoned the fledgling democracy in Iraq and 
propped up the Assad regime in Syria.
    Because of this, Sunni extremists like al-Qaeda and ISIS 
that the U.S. had defeated are able to recruit among alienated 
communities and thrive.
    In the chaos, Iran moves further. While we provide security 
assistance to governments to restore order, they forge new 
outlaw groups modeled after Hezbollah.
    Iran's strategy is partly due to the weakness of its 
outdated military. In Syria, Iran has turned to recruiting from 
vulnerable communities to fight the war.
    A report this week from Human Rights Watch shows that Iran 
is recruiting child soldiers from Afghanistan to help save the 
Assad regime in Syria.
    By using foreign forces, Iran creates a grey zone where it 
can challenge rivals but deny its direct involvement. Using 
Hezbollah in Lebanon, it can wage war on Israel while never 
suffering retaliation.
    In Yemen, the allies can fire missiles at U.S. warships--
its allies can fire missiles at U.S. warships and our Gulf 
partners with impunity.
    Tehran's ability to expand its power throughout the region 
and become a threat to us and our allies has gone on too long.
    I applaud the recent legislation that cleared the Foreign 
Affairs Committee that targets Hezbollah. But more must be 
done.
    Opposition to dangerous Iranian expansionism and support 
for terrorism is a bipartisan concern. Congress can lead 
further by developing a strategy to counter all of Iran's 
proxies.
    There is more at stake than just surrendering the region to 
Iran. If we want to defeat ISIS and defend allies like Israel, 
we must stop the growth of Iranian-backed groups and their 
destabilizing behavior.
    Iran's mobs have gone unchallenged. We are here today to 
find out from our four experts what the U.S. policy is toward 
all of this chaos and what it should be doing in the future.
    And I will now turn to the ranking member, Mr. Keating, for 
my--I started to say Alabama but sorry--Massachusetts for his 
opening statement.
    [The prepared statement of Mr. Poe follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
     
                              ----------                              

    Mr. Keating. A little difference in the two states, I 
think.
    Mr. Poe. A little bit.
    Mr. Keating. That's all right. We are all one country.
    Mr. Chairman, thank you and I apologize. I am going to be, 
at a certain point soon, going out for rollcalls within another 
one of my committees.
    But I would like to thank you for holding this important 
hearing and talking about this important issue. Let's recall 
that prior to concluding negotiations with Iran around the 
nuclear deal, Iran could have just--actually was, without 
question, just months away from a nuclear weapon.
    Just 5 years ago, the airwaves were dominated by concerns 
over whether we'd be facing a nuclear Iran. Today, we are 
debating next steps with the deal and we are making sure to 
conduct robust oversight of Iran's compliance.
    What was once a major national security crisis is now also 
a problem that we can work with our problems and allies to 
solve.
    That's why making our country safer is important and it's 
deals like this that make it look like that's a way that can 
yield progress--dealing with the reality of the threats we 
face, working hand in hand with our allies, and doing something 
about it.
    Iran's destabilizing actions in foreign policy are indeed a 
serious and deeply troubling event because they threaten to 
undermine the security and stability of the region, not to 
mention the right of the people in those countries to establish 
legitimate effective governments and work toward safe and 
productive lives for themselves in their communities.
    The United States should continue to be a global leader in 
promoting peace, the rule of law, and security for all. We must 
be meaningfully involved in addressing Iran's support for proxy 
groups, and violent nonstate actors.
    There is a threat in front of us. So we must be clear-eyed 
about what it means to take that threat on and then pursue the 
most informed effective strategies we can to eliminate it.
    The leadership of the State Department was pivotal in 
countering the nuclear threat from Iran and they will continue 
to be critical in addressing Iran's malign influence in the 
Middle East and around the world.
    We have also cultivated deep partnerships with our many 
allies in Europe, the Middle East, and around the world. We 
can't forget that the nuclear deal was a product of global 
cooperation at the United Nations and among our closest allies.
    Undermining Iran's destabilizing activities around the 
world is a global problem and it is unrealistic of us to assume 
that we could somehow take this one on by ourselves when every 
other threat of this nature has demanded consistent unwavering 
cooperation and collaboration with our friends and allies who 
share our vision for a more peaceful world.
    Iran continues to threaten the security of the region 
through proxies and other destabilizing activities including in 
countries where the United States is actively working to 
promote security and establish a baseline of stability in Iraq, 
Yemen, Syria.
    Countering Iran's influence, however, is not just about 
countering Iran. Russian support for the Assad regime in Syria, 
for example, has strengthened Iran by sharing its burden in 
Syria and strengthening Iran's ability to continue funding its 
engagement abroad.
    These proxy groups are not also wholly-owned entities of 
Iran. They are often independent groups that have been 
considered as threats on their own as well as in relation to 
their ties with Iran.
    We have learned through decades of conflict that 
eliminating threats to security is not easy. Iran has been able 
to take advantage of instability and conflict and weak rule of 
law in order to gain influence beyond its borders through 
violence and undermining legitimate sovereign institutions.
    We cannot unilaterally change Iran's behaviors. However, we 
can indeed and should influence the context in which Iran 
operates illegally.
    We do have the ability to act upon these issues with other 
sanctions that we can impose outside of this agreement.
    We must also advance a robust U.S. State Department with an 
adequate budget, by filling leadership positions across the 
State Department, by strengthening ties with our allies, not 
calling them into question, and by truly working to understand 
the complexities of the security and geopolitical challenges in 
the entire region.
    That's why I appreciate the witnesses being here today to 
testify on this issue, to offer your insights and 
recommendations on how we can wrestle with the unfortunate 
realities we are working with on the ground but also testify to 
the resources we have available to us to eliminate the threat 
posed by Iran's actions throughout the Middle East and the 
world.
    Thank you all. I yield back, Mr. Chairman.
    Mr. Poe. I thank the gentleman from Massachusetts.
    Without objection, the witnesses' prepared statements will 
be made part of this record. I would ask that the witnesses 
keep your presentation to no more than 5 minutes.
    When you see the red light come on on that little thing in 
front of you, stop, or I'll encourage you to stop.
    So we have your statements and all the committee members 
have that. I will introduce our witnesses and then give them 
time for their opening statements. After the statements, then 
the members of the subcommittee will ask you questions.
    I do want to thank you for changing your schedule today to 
be here this afternoon. I know you were supposed to be here 
earlier, and you were. Thanks for waiting. I don't know what 
you did during that interim but thank you for being here.
    Dr. Michael Knights is a Lafer Fellow at the Washington 
Institute for Near East policy. Previously, he worked on 
capacity-building projects in Iraq, Yemen, and has published 
numerous works on the challenges of containing Iranian 
influence.
    Mr. Aram Nerguizian is the senior associate and Burke Chair 
in strategy at the Center for Strategic and International 
Studies. He is frequently consulted by government and private 
sectors and has authored a number of books on the Middle East.
    Dr. Kenneth Pollack is a resident scholar at American 
Enterprise Institute. Prior to this, Dr. Pollack was affiliated 
with the Brookings Institute and served on the National 
Security Council.
    And Ms. Melissa Dalton is a senior fellow and deputy 
director of the International Security Program at the Center 
for Strategic and International Studies.
    Previously, she served in a number of positions at the 
United States Department of Defense in the office of Under 
Secretary of Defense for policy.
    Dr. Knights, we will start with you. You have 5 minutes.

    STATEMENT OF MICHAEL KNIGHTS, PH.D., LAFER FELLOW, THE 
           WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. Knights. Thank you. Thanks very much.
    Chairman Poe, Ranking Member Keating, and the distinguished 
committee, thank you for inviting me to testify at today's 
hearing on Iranian-backed militias.
    I am very proud to be giving testimony today to the House 
for the first time as a new American citizen, as an immigrant, 
and as an adopted son of the Commonwealth of Massachusetts.
    We are here today because Iran and, particularly, the 
Islamic Revolutionary Guard Corps--IRGC--is hesitant to risk 
its own people in its expansion across the region but it's 
quite happy to fight to the last Arab or to fight to the last 
Afghan to win these regional wars.
    Iranian-backed militias give Iran the ability to threaten 
Israel in the Golan Heights, to fire ballistic missiles into 
Saudi Arabia as far as Riyadh, to threaten Abu Dhabi with 
ballistic missile attack or to intimidate vital sea lanes 
without facing the direct consequences of taking such steps.
    So reducing the scale of Iranian-backed militias will be a 
critical part of a new strategy to counter Iranian influence 
and I'd like to suggest six areas where we might move forward, 
and in the written testimony there is a lot of detailing on 
Iranian militia--backed militia activities in Iraq, in Yemen, 
in Bahrain, and in Saudi Arabia and Kuwait.
    So, first, we need to compete with Iran in key spaces. Iran 
always fills a vacuum. It's very opportunistic.
    The United States should openly adopt a strategic game of 
diminishing malign Iranian influence in any and all spaces 
where Iran could seek to expand.
    This means publicly committing to the reduction of malign 
Iranian influence in a range of areas. For instance, there must 
be no significant Lebanese, Hezbollah, or Iraqi militia or 
Iranian forces in southern Syria adjacent to Israel, or along, 
let's say, the Iraq-Syria border. There must be no significant 
Lebanese, Hezbollah, or Iranian forces in Yemen.
    Perfect success is less important than sending the right 
signal to regional allies than to the Iranian regime.
    Second, we need to build and repair alliances. We need to 
back allies in effective states like the counterterrorism 
service in Iraq or the rebels in southern Syria. We need to fix 
rifts within the Gulf Cooperation Council, weave Iraq back into 
the Arab world, particularly its relationship with Saudi 
Arabia, and show Europe that the U.S. will not leave the 
nuclear accord before exhausting all other alternatives. The 
more we give, the more we will get.
    Three, we need to divide Iran from potential proxies, not 
push them together. Iran's interest is rarely perfectly aligned 
with its proxies. But the proxies are often desperate for 
assistance and Iran is the only one making a credible offer.
    By being present and active in the Middle East, the U.S. 
can work with allies to slowly drive a wedge between Iran and 
potential proxies while offering them better options.
    For instance, in Iraq, we should quietly support a gradual 
disarmament, demobilization, and reintegration program that 
reduces the threat posed by Iranian-backed militias operating 
within Iraq's well-funded popular mobilization forces.
    In Yemen, the best way to peel the Houthis away from Iran 
is to push Saudi Arabia to reduce civilian casualties in the 
war and drive for a rapid peace process that will end the war 
with a sustainable decentralization-based solution.
    In the Gulf States, we need to push Saudi Arabia and other 
Gulf States to improve the political and religious freedom to 
protections of Shi'a minorities, which is the best way to split 
these potential proxies away from Iran instead of pushing them 
toward Iran.
    Likewise, we need to interdict Iranian lines of 
communication. Much has been made of the so-called land bridge 
between Iran and Syria via Iraq, importantly. It is worth 
remembering that Iraq is the bridge so Iraq should remain to be 
very important for our policy, going forward.
    But it is--it's worth remembering that Iranian sponsorship 
of Lebanese Hezbollah including its large missile force was 
achieved without a land bridge.
    The U.S. needs to work to interdict land, air, and sea 
communications as well as financial and electronic between 
Iraq--between Iran and its proxies.
    We should help places like Iraq to stem the flow of 
fighters out toward these places.
    We also need to impose and exercise painful red lines on 
Iran and we need to demonstrate this credibility. We need to 
build credibility by always following through on our threats, 
even when they might be painful, even when they might open us 
up to the prospect of Iranian retaliation against our citizens 
abroad.
    And finally, we should put somebody in charge of 
coordinating and rolling back Iranian-backed militias. On their 
side, they have Qasem Soleimani as the figure who owns this--
the portfolio of building Shi'a militias and guiding that 
process.
    We might ask, who is Qasem Soleimani. We need somebody who 
can bring together and employ all their tools of national 
power.
    Thank you very much.
    [The prepared statement of Mr. Knights follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                              ----------                              

    Mr. Poe. Thank you, Mr. Knights.
    We will now proceed to our next witness, Mr. Nerguizian. I 
apologize. Thank you, sir.

STATEMENT OF MR. ARAM NERGUIZIAN, SENIOR ASSOCIATE, BURKE CHAIR 
  IN STRATEGY, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Nerguizian. Chairman Poe, Ranking Member Keating, 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss Lebanon and 
the challenges it faces in the wake of Hezbollah's military 
intervention in Syria and the Lebanese Armed Forces' August 
campaign against ISIS.
    Hezbollah's decision to commit to offensive military 
operations inside Syria in concert with Assad's forces in a 
pre-emptive war----
    Mr. Poe. Is your microphone on?
    Mr. Nerguizian. It is, sir.
    Mr. Poe. Move it closer, please, sir. Thank you.
    Mr. Nerguizian. Better?
    Mr. Poe. Better.
    Mr. Nerguizian. Hezbollah's decision to commit to offensive 
military operations inside Syria in concert with Assad's forces 
in a preemptive war of choice reflects its own narrow set of 
overlapping regional and domestic priorities, preserving the 
resistance axis with Iran and Assad's Syria, the perceived need 
to contain militant Lebanese Sunni forces, and dealing with the 
communal fears of Lebanon's Shi'a community.
    As a regional minority group, all serve as continued 
justification for Hezbollah to maintain strategic depth in 
Syria.
    In 2017, Hezbollah's military priorities in Syria have 
shifted from an active combat role in and around Zabadani and 
the Qalamun mountain range to supporting a more expeditionary 
posture backing Assad and allied forces.
    The 2011 to 2017 period has been a daunting challenge for 
Lebanon. Even Hezbollah has strained to simultaneously maintain 
its posture in south Lebanon, create metrics of stability in 
the north and the Bequaa and sustain a forward expeditionary 
footing in Syria.
    In the face of these regional challenges, no national 
institution in Lebanon has contributed more to relative 
stability than the Lebanese Armed Forces, United States' 
principal institutional partner in the country.
    Today, the LAF stands as a paradox. In a country with a 
clientelist sectarian system that abhors professional 
institutions, the LAF has emerged as one of the Arabic-speaking 
Middle East's only fighting militaries and one of the United 
States military's most effective regional counterterrorism 
partners.
    With the clear and insulated theater-level chain of command 
in place, the LAF began the execution of its counter ISIS 
campaign against militants on the Lebanese side of the Syrian-
Lebanese frontier and operation code name Dawn of the Jurds, 
loosely translated, was publicly announced on August 19, 2017.
    Later that day, Hezbollah and the Syrian Arab army 
announced their own counter ISIS military campaign on the--on 
their side of the Syrian frontier.
    For all the international concern of potential LAF 
Hezbollah coordination, the official start date of the 
operation is misleading. Well before August 19th, the LAF had 
already begun taking independent action against ISIS--ISIS 
ridge lines and positions.
    The initial brunt of the operation was executed on August 
14th. The LAF's superior battlefield awareness and targeted 
strike capability quickly demoralized ISIS forces in Lebanon.
    As LAF regular and elite units took more ground and 
consolidated their new positions, the effective use of U.S.-
supplied ISR targeted strike SOF and armoured mobility led to 
the description of Dawn of the Jurds by one U.S. military 
officer in Lebanon to me as 21st century manoeuver warfare by a 
modern military.
    As the LAF prepared to free the last remaining pocket of 
territory held by ISIS, Hezbollah publicly announced that it 
was engaging in controversial negotiations with ISIS to secure 
the whereabouts of LAF military personnel captured by ISIS and 
Jabhat al-Nusra militants in August 2014.
    This, in turn, forced a temporary resuspension of LAF 
military operations and on August 29th, 2017, in a deal 
brokered by Hezbollah, ISIS forces began preparations to depart 
Lebanon.
    After Dawn of the Jurds, LAF commanders and their U.S. and 
U.K. counterparts are comfortable stating that the campaign was 
conducted with no coordination or cooperation between the LAF 
and Hezbollah.
    On the contrary, the LAF's solo campaign was so successful 
that elements close to Hezbollah sought to take credit 
retroactively for the LAF's successes and/or promote a 
narrative of secret coordination between the LAF, Hezbollah, 
and the Assad regime.
    Dawn of the Jurds may have lasting implications for a 
stalled debate in Lebanon and national security. The LAF's 
rapid and professional execution of the counter ISIS campaign 
without anyone's help, including Hezbollah or the Assad regime, 
has shattered the narrative in the minds of some Lebanese that 
Hezbollah is Lebanon's sole preeminent national security actor.
    Those who define Lebanon through the lens of Iran alone 
would fail to see the LAF as anything but an extension of 
Hezbollah.
    However, as one senior Pentagon official noted to me, there 
are still many in the U.S. Government and Congress who believe 
that there is still a Lebanon and LAF worth saving. Being 
hawkish on Lebanon in U.S. policy terms has traditionally meant 
being tough on Hezbollah and other opponents of U.S. policy in 
the Middle East.
    But when the LAF engaged ISIS militarily in August, being 
hawkish on Lebanon meant doubling down on the LAF because, in 
the end, a Lebanon with a weak LAF will be fertile terrain for 
Iran and its local and regional partners.
    Choosing not to blink in the face of Lebanon's complexity 
and standing fast by the LAF as U.S. civilian and military 
leaders did this August only serves to strengthen the LAF's 
domestic and international military legitimacy.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Nerguizian follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
    
                              ----------                              

    Mr. Poe. Dr. Pollack.

STATEMENT OF KENNETH POLLACK, PH.D., RESIDENT SCHOLAR, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Pollack. Thank you very much, Mr. Chairman, Mr. Ranking 
Member, distinguished members of the committee. It is a great 
privilege to be here before you.
    This topic that you've raised of Iranian support to 
militant groups across the region and the role that they play 
in Iran's regional policy is an extremely important one and I 
just want to make three overarching points on this.
    First, in the military realm, there is nothing special, 
nothing magical about Iran's willingness or desire to support 
these groups, how it has done so, or the success that it has 
enjoyed in doing so.
    Iran backs these groups because it is politically and 
strategically constrained from using its own forces to project 
power.
    The support it provides is entirely conventional and not 
meaningfully different from the kinds of support that the 
United States has provided to countless groups during our 
history, ranging from UNITA to the Afghan mujahadeen to the 
current Syrian democratic forces.
    What's more, the militant groups that Iran has helped to 
sponsor and back are not terribly capable. They are mostly 
extremely mediocre forces.
    Their successes, to the extent that they have enjoyed them, 
are largely attributable to very conventional sources and are 
not exceptional in any way.
    Even Hezbollah has proven itself relatively far more 
capable than other Arab militaries. But it is not the match for 
any modern capable military. It is not a match for the United 
States military, for the Israeli Defense Forces, or any other 
in that category.
    Ultimately, there is nothing that the Iranians or Hezbollah 
has to teach in the military realm to the United States Armed 
Forces or to the CIA.
    Second, where they do have something to teach it is in the 
political, economic, and social support that are core elements 
of what we call their Hezbollah model.
    There, what the Iranians have hit upon is that the 
political, economic, and social services that they use to build 
up these forces, to root them in their communities are critical 
to the success of these groups.
    They provide them with a great deal of popular support and 
legitimacy, which, in turn, translates to cover and 
concealment, greater intelligence, better ability to recruit 
and to secure financial resources and, ultimately, as we see in 
the case of Lebanon, political power, all of which advance 
their aims in these critical but ultimately nonmilitary spheres 
that nevertheless impinge upon the military and upon the 
battlefield.
    It should remind us that we cannot prevail against Iran nor 
can we stabilize the Middle East or help the countries of the 
region to do so by military means alone.
    Third, and along similar lines, Iran is not 10 feet tall. 
They are not fools. They are quite capable. But at the end of 
the day, Iran is not the source of the problems of the Middle 
East.
    Iran simply exacerbates those problems and exploits them. 
Ultimately, the best way to prevent Iran from making further 
gains in the Middle East is to address the underlying economic, 
political, and social problems which are roiling the entire 
region, which are creating weak governments, failed states, 
civil wars, and insurgencies.
    That is what Iran goes looking for, and we find that time 
and time again when the fissures in Middle Eastern societies 
create opportunities, the Iranians are Johnny-on-the-spot to 
take advantage of them, and they use their support and they use 
every means that they can to try to pry those states apart.
    And, ultimately, if our goal is to prevent the Iranians 
from expanding their influence, from building up their support, 
from recruiting new members of this coalition that they have 
tried to craft all across the region, ultimately to overturn 
the regional status quo and to remake it in their own 
interests, the most important thing that the United States can 
do is to help the countries of the region to address these 
underlying problems.
    It is absolutely critical that we do so. We are not going 
to be able to fight the Iranians piece by piece, matching them 
on the battlefield time and again. They are not going to stop. 
They are infinitely patient and they will keep coming back.
    But what we have seen from our own hard experience is that 
when we help the people of the region to address their problems 
in governance, economics, and social issues, they will push 
back on the Iranians more effectively than we ever could.
    Thank you very much.
    [The prepared statement of Mr. Pollack follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                              ----------                              

    Mr. Poe. Thank you, Dr. Pollack.
    Ms. Dalton.

   STATEMENT OF MS. MELISSA DALTON, SENIOR FELLOW AND DEPUTY 
DIRECTOR, INTERNATIONAL SECURITY PROGRAM, CENTER FOR STRATEGIC 
                   AND INTERNATIONAL STUDIES

    Ms. Dalton. Chairman Poe, Ranking Member Keating, and 
distinguished members of the subcommittee, it is an honor to 
testify before you today on the challenge of Iranian-backed 
militias alongside my excellent colleagues.
    Several goals drive Iran's approach to the region including 
ensuring survival of the Islamic Republic, deterring 
adversaries, enhancing its regional power and influence, and 
securing a place of political and economic importance within 
the international community.
    Iran is aware of its conventional military inferiority that 
Ken just described versus its adversaries. It views its 
strategy as a type of self-reliant deterrence against 
adversaries bent on keeping it weak.
    It leverages a range of unconventional and conventional 
capabilities in concepts of operation including proxy forces to 
achieve its objectives.
    This approach also encompasses other activities including 
missile development, engaging in provocative maritime 
operations, exploiting cyber vulnerabilities, and employing 
information operations.
    It ensures that any escalations against the United States 
and its regional partners fall short of large-scale warfare 
where we have the advantage.
    Through this approach, Iran can pursue its goals while 
avoiding kinetic consequences, enjoy plausible deniability 
while using its proxies, subvert regional rivals and deter them 
from taking actions that could trigger a potential backlash 
from the proxy groups, and infiltrate and influence state 
institutions incrementally in countries with weak governance.
    Moreover, the wars in Syria, Iraq, and Yemen have provided 
fertile ground for the growth of Iranian proxies and supported 
groups. They also have broader implications. Russia has 
reemerged as a regional player following its Syrian 
intervention allied with Iran in support of Bashar al-Assad, 
raising the geopolitical stakes for the United States and Syria 
and possibly the greater region.
    Israel may take greater unilateral and proactive steps in 
Syria to protect its security. Iran's support for Houthi rebels 
in Yemen provoked a Saudi-led intervention, embroiling a U.S. 
partner in a controversial and protracted war.
    Iran's approach also presents vulnerabilities. Through its 
destabilizing regional activities, Iran's image as an 
international pariah remains in many ways the same, impairing 
its economic development.
    Iran is also hindered by a principal agent problem versus 
its proxies, which do not always act in accordance with Iranian 
interests.
    Not all proxies are created equal. Some receive more 
support from Iran and are ideologically closer to Iran than 
others, such as differences between Lebanese Hezbollah and some 
Iraqi Shi'ite groups.
    Yet, the United States has largely been unable to deter 
Iran's incremental extension of regional power and threshold 
testing across a range of military and paramilitary activities.
    Indeed, in the last 5 years, Iran's threat network has 
grown. Policy makers face a dilemma when it comes to Iran. If 
Iran's hostile actions elicit conciliatory responses, Iran can 
deem its actions as successful. It's coercive in shaping 
strategy is working.
    But if Iran's hostile actions elicit punitive responses, 
Iran can feel even greater incentive to act asymmetrically 
where its strengths are.
    Thus, a sequence combination of both sticks and carrots and 
leveraging a range of nonmilitary and military tools ourselves 
is the best way to disrupt this cycle.
    Iran is not a unitary actor. A punishment or incentive for 
some factions in Iran may be perceived differently by others. 
Good intelligence, negotiations and track two dialogues can 
illuminate these nuances and be pursued in parallel with a 
sharpened strategy to address Iran's destabilizing behavior.
    Working in coordination with allies and partners, the 
United States can take several steps to limit the reach and 
growth of Iranian proxy activities.
    These measures include ratcheting up direct and indirect 
operations to disrupt IRGC activity and interdict support for 
proxies calibrated for U.S. and Iranian red lines; conduct 
cyber disruption of proxy activities; avoid inflating Iranian 
capabilities and intentions; expose Iranian-backed groups, 
front companies, and financial activities outside its borders 
to discourage Iranian coercive interference; exploit 
nationalist sentiment in the region that bristles at Iranian 
interference through amplified information operations; sustain 
financial pressure on IRGC and proxy activities; negotiate an 
end to the Syrian and Yemenese civil wars that minimizes the 
presence of foreign forces; constrict the space that the IRGC 
can exploit in the region by building the capabilities of 
regional partner security forces, and supporting governance and 
resiliency initiatives in countries vulnerable to Iranian 
penetration.
    Even a U.S. strategy that seeks to amplify pressure on Iran 
cannot be purely punitive or it will prove escalatory and have 
its limits in changing Iran's behavior.
    The United States should link possible incentives to 
changes that Iran makes first such that they are synchronized 
as one move.
    Congress and the U.S. administration have an opportunity to 
chart a pathway forward on Iran policy. I hope that today's 
hearing can inform that process.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Dalton follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you, Ms. Dalton. The Chair will reserve its 
time until later and allow members to ask questions.
    At this time, also for the record, without objection, the 
map that you have in front of you that's on the board that 
shows Iran and then the countries that we have mentioned where 
their proxies are will be made part of the record.
    The Chair will recognize the gentleman from California, 
Colonel Cook, for his opening--or his questions.
    Mr. Cook. Thank you, Mr. Chair.
    Dr. Knights, I want to talk to you about Soleimani, and I 
know you referred to him and everything else but--and I think 
you described him as--he's kind of a multiple threat player and 
the reports that I've read and the conversations about 
Soleimani being all over, just how much power does he have in 
this government?
    It almost seems like he's almost unchecked. He goes to meet 
with Putin in Moscow. He meets with certain groups that we have 
described as terrorists. It just seems like he has got 
tremendous power and influence in that country, and if you 
could elaborate on that I would appreciate that.
    Mr. Knights. Thanks very much.
    There are other people who can add to what I will say. But 
he's--Soleimani is a powerful propaganda figure. He's become a 
symbol of Iran's expansion in the region. He's a dedicated 
soldier who seems to want to stay out of politics. He's trusted 
by the senior leadership within Iran including the Supreme 
Leader.
    He has relationships with individuals across all of the 
affected countries where Iran is expanding its influence and 
he's a capable tactician.
    But, as Ken said, he's not 10 feet tall. He has faced 
setbacks, most recently, for instance, when he tried to stop 
the Iraqi Kurds from holding their referendum and they resisted 
his power.
    So even when he's trying very hard, regional states can 
still resist as long as they--or at least a number of regional 
states can resist, especially if they have U.S. backing. His 
power is not endless.
    Mr. Cook. Thank you.
    I want to switch gears a little bit.
    Dr. Pollack, you talked about Hezbollah or however you want 
to pronounce it, and it almost made it seem like they are--I 
think they are still a formidable military force. And I think 
that some of my colleagues in Israel would attest to that were 
they to change their strategy, particularly their engagements 
in '06, particularly the damage that was done to their Thanks 
and APCs and everything like that.
    And I still think they are very, very powerful. They 
adjusted. They did very well from a military standpoint. I'm 
not addressing the economic and social aspects of it.
    But and maybe my--being on the House Armed Services 
Committee I get a different take on it. I still think they're a 
very powerful factor variable in Lebanon and on the northern 
border of Israel and Syria.
    Does anyone have anything to contribute to that or--I know 
it's kind of slanting more military but I--I still think they 
are still a terrorist organization and they've gotten more and 
more equipment including the Russian Kornet anti-tank missiles, 
which have proven very, very effective. And the same thing has 
been used against the Saudis in Yemen.
    Mr. Pollack. Congressman, I will be the first to answer 
that. First, I want to be specific--the point that I was trying 
to make in my opening remarks was that Hezbollah is not 
something extraordinary or exceptional. We shouldn't see them 
as some kind of a magical force that has capabilities that we 
can't match in any way, shape, or form.
    Second point--I would certainly agree with you, and I 
believe I at least made this point briefly in my opening 
remarks, that Hezbollah is exceptional within the Arab world. 
They are far superior to any current Arab military in terms of 
their unit by unit capability.
    I mean, if you simply look at their combat performance I 
think it's a fair assessment that they are probably the most 
able Arab military that we have seen since the Jordanians in 
1948.
    Now, that's an important point, and on the battlefield in 
particular in Syria, what we have seen is that Hezbollah units 
have functioned very well, better than most.
    Mr. Cook. They're going to cut me off here pretty soon. But 
I did want to--I noticed that one thing was not covered and 
that's the difference between the Shi'ites and the Sunni, which 
is a, obviously, a big problem with Saudi Arabia and, 
obviously, Arabs versus Persian, and that big difference 
there--how much do you think that contributes to some of these 
difficulties that we have? And I'm out of time so----
    Mr. Pollack. I'll pick up again.
    I think there is no question that the Sunni-Shi'a split is 
out there and it's something that the Iranians have been able 
to exploit to a certain extent.
    We should recognize that in many ways it's also a 
disadvantage for them, something they're acutely aware of, 
because the Muslim world is overwhelmingly Sunni, not Shi'a, 
and the Iranians have in the past tried as much as they could 
to support Sunni groups and other non-Shi'a groups. It's just 
that they mostly get purchase with the Shi'a groups.
    The last point, as you point out, there is--you know, there 
are good ways to counter this and one of them is the Arab-
Persian split that you mentioned, and we've seen time and 
again, especially in Iraq, is that Iraqi Shi'a, when given the 
opportunity, identify themselves as Arabs before Shi'a. They 
need that opportunity.
    Mr. Cook. Good point. Thank you. I yield back.
    Mr. Poe. I thank the gentleman from California.
    The Chair recognizes the gentlelady from Florida, Ms. 
Frankel.
    Ms. Frankel. Thank you. Thank you, Mr. Chair. Thank you for 
this hearing.
    Let's see, I have four questions. See if you can remember 
that. I might have five but I don't know if I will get past 
four.
    My first question is, there has been some talk by some in 
the administration of the United States pulling out of the 
JCPOA. I would like your opinion of that.
    I would like to hear your opinion of how the proposed 
reduction--one-third reduction in the State Department budget 
and especially USAID, how you think that affects the discussion 
that we are having here today.
    And relative to that, one of you talked about how Hezbollah 
or some of the Iranian proxies offer more than a military 
presence, and I would like you to expand on that.
    My fourth question, if you get to it, is where do you see 
Russia fitting in to all of this.
    Mr. Poe. You have 5 minutes. [Laughter.]
    Mr. Nerguizian. Ms. Frankel, if you don't mind, I will take 
only two of those four.
    On your second question on aid, we have to factor in that 
Hezbollah is the byproduct of 30-plus years of unfettered 
focussed asymmetric security systems by Iran.
    It's no surprise that they are as capable as they are. In 
countries like Iraq, Lebanon, Jordan, you have a mix of 
different relationships with militaries.
    But many of those are starting to bear fruit now, as I 
pointed out in my testimony. I think that there needs to be a 
serious consideration to what the impact will be of not just 
curtailing security systems programs under FMF to countries in 
the Middle East, but the 40-plus countries around the world 
that would be affected.
    This, basically, impacts how the United States can shape 
and mentor emerging partners in the Middle East, especially 
fighting militaries like the one I described.
    I would even challenge Ken a little bit on the analysis in 
part because Hezbollah's key strengths are its unity of effort, 
its cohesive decision making, and the will to act.
    Most militaries in the region have that but don't have a 
fight worth fighting. In the case of Lebanon with ISIS, you had 
a unique opportunity for one military to show that it has 
broken the mold.
    On the issue of Russia, ultimately, there are--there are 
still a lot of intangibles. There are countries where it's far 
more difficult for Russia to cement its role and its influence.
    We don't see that in places like Lebanon in any credible 
fashion. They understand the complexities of engaging in a 
country like Jordan where the U.S. has lasting long-term 
equities.
    And even in Syria, they, I think, are very much aware that 
they can certainly float the Assad regime. But they don't have 
the resources or the wherewithal to manage or micromanage the 
complexities of a divided society like Syria, let alone the 
enormous reconstruction costs.
    At some point, other countries will have to step in and 
there will be a vital U.S. role.
    Ms. Frankel. Does somebody else want to answer any of the 
questions? How about the--how about the--leaving the JCPOA and 
the reduction of the USAID and the State Department?
    Ms. Dalton. Ma'am, I'd be happy to answer both of those.
    In my opinion, walking away from the JCPOA is not in the 
national security interests of the United States. It is 
absolutely in the interest of the U.S. to stay with the nuclear 
agreement.
    If you take the JCPOA off the table, you reintroduce the 
nuclear dimension to this issue set that we've been describing, 
which makes it incredibly more dangerous and escalatory for all 
parties in the region, for our presence there, for the 
potential for an Israeli preventive strike to prevent the 
Iranians from achieving a nuclear weapon.
    So it is absolutely important that we uphold the deal. That 
said, there are some concerns about the sunset clauses in terms 
of missile development. But I believe that those issues should 
be negotiated----
    Ms. Frankel. Can you just answer--I'm sorry--get to the 
USAID question because we are running out of time.
    Ms. Dalton. Absolutely.
    Ms. Frankel. Yes.
    Ms. Dalton. When it comes to the State Department and 
USAID, I believe that we need to reinforce the resourcing for 
both department and agency.
    They are absolutely critical institutions to addressing the 
governance and resiliency gaps in the Arab world that Iran is 
very ably exploiting and into which it is able to insert its 
proxy elements.
    Mr. Poe. Chair recognizes the gentleman from Florida, Mr. 
Mast.
    Mr. Mast. Thank you, Chairman.
    So I want to start with some of the broader implications 
that were mentioned here. I think that was a great word to use. 
And so I'd just start with maybe a--not yes or no but a quick 
short opinion from each one of you.
    Do you think that Iran sees these as colonies? Sees their 
proxies as colonies? Do you think maybe we are using the wrong 
word?
    Mr. Knights. Speaking for Iraq, yes. I mean, they have 
economically colonized parts of the Iraqi economy. They are a 
bit like the East India Company, once upon a time.
    They are actually a moneymaking venture as well as a 
military intelligence venture.
    Mr. Nerguizian. In the case of Lebanon, they're going to 
run up against the wall that no single faction and no single 
community, as in the case of Lebanon's divided political 
landscape, has ever been able to take preeminence.
    As powerful as Hezbollah is, it can't take over Lebanon, 
and Lebanon can't become a colony state of Iran.
    What you have is a country where they are just going to try 
to maintain a strategic posture to deterrence.
    Mr. Mast. What about any other place they have proxies? For 
you.
    Mr. Nerguizian. In the case of Yemen, there comes a point 
where you have buyer's remorse. There is no reason why a 
country like Iran is going to sustain a level of engagement 
with countries like Yemen where you have far--a far more 
expeditionary footprint, where they own the problems of the 
region.
    And in a place like Iraq, it's far more complex than I 
think a lot of the Iranian leadership expected, given the--
given their own challenges of managing Sunni-Shi'a tensions in 
a place like Iraq.
    Mr. Mast. But you did just point out as well that they have 
a very long-term view. Hezbollah, you pointed out, 30 years in 
the making--I mean, they very clearly have an ability to look 
down the road quite a long ways.
    Dr. Pollack and Ms. Dalton.
    Mr. Pollack. I will just say I think it runs the gamut, 
Congressman. There are groups like Palestinian Islamic Jihad, 
which are clear proxies of Iran. Then the Houthis, who I 
described as allies.
    And even within a place like Iraq, you know, you have a 
range from the Badr Corps to Asa'ib Ahl al-Haq to Kata'ib 
Hezbollah running a range of how tied in they are to Iran--how 
much Iran can control them--how much they have their own 
interests.
    Ms. Dalton. I think the Houthis are a really good example 
of a group that is on perhaps the other end of the spectrum in 
terms of a way for Iran to, in a low-cost fashion, disrupt one 
of their key adversaries in the region, which is Saudi Arabia.
    But the Houthis are not a true proxy in the sense--or 
colony in the sense that perhaps Lebanese Hezbollah, some of 
the groups in Iraq are. So, again, to the point not all proxies 
are created equal.
    Mr. Mast. Certainly not.
    Switching gears but sticking with the theme of broader 
implications, a general question--I'd love to, again, have the 
opinion from all four of you.
    It certainly hasn't been lack of desire to develop nuclear 
weapons. What has prevented Iran from developing nuclear 
systems, something that we developed in the 1940s?
    We mastered it by the 1950s and '60s. The delivery systems 
for them, whether it be via submarine, dropping it out of an 
aeroplane or firing it out of a silo, we developed that--you 
know, mastered by, you know, '60s and '70s for sure.
    What has prevented them from developing that? We did it in 
the '40s. How come they haven't been able to?
    Mr. Pollack. Congressman, that's a big question that 
deserves a better answer than I can give you. But I will say 
that it is a combination of different factors, starting with 
the fact that their scientific establishment isn't as good as 
ours.
    But adding to that the fact that we didn't have a much 
bigger, more powerful country like the United States and allies 
like Israel, the Europeans, Saudi Arabia, et cetera, all 
working as hard as they could to prevent Iran from acquiring 
the scientific know-how, the technology, and the resources to 
do so.
    Mr. Mast. What do you think is most important to get 
scientific know-how and technology? I would say resources.
    Mr. Pollack. That would be a very good start. I mean, as 
we've seen with other countries, if the resources are there, 
the scientific know-how may follow.
    Mr. Mast. So if we have potential colonization of the 
Middle East and an Iranian empire that has much greater access 
to the world economy, do we have access to much more resources 
in Iran?
    Mr. Nerguizian. At the end of the day, Mr. Mast, we are 
still living in a dollarized economy. And one of the problems 
that Iran is continuing to struggle with is its ambitions are 
constantly curtailed by the fact that it has to work in a 
dollar economy.
    That's why the mix of sanctions not only on Iran but its 
proxies in the region, if not carefully calibrated--and they 
are, in many ways--they can have a detrimental effect on moving 
Iran outside the dollar economy.
    In many ways, that is one of the most powerful weapons that 
a country like the United States can deploy to limit the 
ambitions and the ability to amass the resources you described.
    Mr. Mast. We had Dr. Knights mention that he thought there 
was resources coming in as a result of what I would point 
toward as colonization.
    In your opinion, do you think that there are more resources 
now post-JCPOA or less post-JCPOA?
    Mr. Nerguizian. Frankly, I could not make an informed 
statement to that effect without having the adequate knowledge 
on that.
    Mr. Knights. Some of the actions that they undertake out in 
the environments where the Iranian-backed militias are active 
are just to self-finance those projects so that they're less of 
a drain on the Iranian military and economy.
    But, yeah, the opening of Iran to international investment 
is going to put a massive shot in the arm of the entire system.
    Mr. Mast. My time has expired. I thank you for your 
answers.
    Mr. Poe. I thank the gentleman from Florida.
    The Chair recognizes the gentleman from New York, Mr. 
Zeldin.
    Mr. Zeldin. Thank you, Mr. Chairman.
    Dr. Knights, I had a question, going back to your opening 
statement.
    You had a couple of consecutive lines. I just want you to 
clarify so I can understand. One line was about staying in the 
nuclear deal. The next line was the more we give, the more we 
get.
    What were you referring to when you were saying that?
    Mr. Knights. What I was referring to is that we want the 
Europeans on side. The best we ever did with Iran was when we 
had numerous European countries and the international court of 
world opinion on our side. That's when we brought really 
crippling sanctions into place.
    Thus, as we are looking to do things like counter threat 
financing against Hezbollah networks, for instance, or bringing 
more pressure on Iran about missiles, what we really want to be 
doing is attracting European partners, not by being soft on 
Iran in the nuclear deal but by approaching--by doing a step-
by-step process, first, perhaps decertify INARA which I think 
is a good step, but then hold out the threat of further 
additional sanctions or stopping waivers to try and--a step-by-
step process of trying to gain European support. Failing that, 
threatening something that they don't want to happen.
    Mr. Zeldin. Thank you.
    Ms. Dalton, gave a--started to give a strong defense of the 
nuclear deal. Did you support the nuclear deal originally?
    Ms. Dalton. Yes.
    Mr. Zeldin. Okay. And just several factors that are 
important, I guess, to understand.
    First off, are you aware that we didn't even ask Iran for 
its signature on the JCPOA?
    Ms. Dalton. Yes.
    Mr. Zeldin. Have you read the verification agreement 
between the IAEA and Iran?
    Ms. Dalton. Not in detail. I'm not a nonproliferation 
expert. But not in detail.
    Mr. Zeldin. Okay. You probably haven't read it at all, 
right?
    Ms. Dalton. I have--I understand the basic frame of it.
    Mr. Zeldin. Okay. Well, when we were at a House Foreign 
Affairs Committee hearing and Secretary Kerry was testifying, 
he admitted that he hadn't even read it because--and no one 
here in Congress has read it yet either because none of us had 
it.
    So defending how it's a strong unprecedented verification 
regime, it's important to note that no one knows what the 
verification regime is. It still hasn't been provided.
    I'm sure one of the reasons why you'd be supported of the 
nuclear deal is that uranium was taken out of the country?
    Ms. Dalton. That is my understanding of one of the key 
provisions.
    Mr. Zeldin. Do you know where the uranium is?
    Ms. Dalton. Again, this is not my issue area but I would 
welcome your insight.
    Mr. Zeldin. Well, you are here testifying in strong defense 
of the nuclear deal and these are just important factors to 
consider.
    You're aware that U.S. weapons inspectors are not allowed 
on any of the inspection teams, correct?
    Ms. Dalton. Again, I--this is not my particular area of 
expertise. But as the JCPOA pertains to a broader approach for 
Iran, I am--I am supportive of the deal.
    Mr. Zeldin. Okay. And Iran is responsible for collecting 
some of their own soil samples, inspecting some of their own 
nuclear sites.
    This regime gets praised for how in Iran they elected the 
most moderate candidates. Oftentimes, as you see that in the 
American media or in conversations amongst the American public 
in the international community, they negate the fact that the 
12,000 most moderate candidates weren't even granted access to 
the--to the ballot.
    I actually believe that the Iran nuclear deal is more so a 
blueprint for how Iran gets to a nuclear weapon than a 
blueprint for preventing them from having a nuclear weapon.
    But putting the nuclear piece aside, there is a shared 
concern here, obviously, all four of you with the bad 
activities Iran has been engaging in in the region and the 
leverage that brought the Iranians to the table.
    They were desperate for that sanctions relief by us not 
involving any of Iran's other bad activities, and negotiating 
the sanctions relief, unfortunately, has put us in a position 
where we do not have the leverage to deal with Iran's other bad 
activities.
    So we have to figure out what more we can do with placing 
leverage back on the table in ways that we don't have right 
now.
    I would also suggest that we are propping up the wrong 
regime in Iran, and in 2009 when millions of Iranians took to 
the streets to protest an undemocratic election, millions of 
Iranians, we said it was none of our business.
    And it very much was. The next time that this happens--the 
fact is, it's a very different dynamic in Iran, it seems, than 
North Korea. North Korea, if you have a tour guide taking you 
around Pyongyang and you walk inside an elevator, the tour 
guide will stop.
    The face--the demeanor will change and he'll say, Kim Jong-
un was once on this elevator. They have this awe of their 
leader in North Korea, and there's an information effort that's 
needed there in Iran.
    You have millions of Iranians who want to lead their 
country in a better way, and I think that's something else to 
consider not just with Iran's activities in other countries but 
the ways that Iran, I think, is ready to change their behavior 
from within.
    Next time that opportunity comes for us to weigh in and 
possibly help influence that, hopefully it has a different 
outcome for the other Iranians who want to lead their country 
in a much better direction.
    I yield back.
    Mr. Poe. I thank the gentleman.
    The Chair recognizes the gentleman from California, Mr. 
Rohrabacher.
    Mr. Rohrabacher Thank you very much, Mr. Chairman.
    I apologize for being a little bit late to the hearing. 
We've got double billings all the time. So if I ask something 
that's redundant, please feel free to say, we already answered 
that.
    But I'm taking a look at what I was handed about the Iran 
and the different influences it has in different parts of that 
part of the world.
    Do you think--did the fact that we have freed up over a 
$100 billion to this regime--has that increased at all the 
level of activity in these other areas that seem to be in 
turmoil?
    Mr. Knights. So just to kick off, some of the Iranian-
backed militia operations are very economical. In Iraq, it is 
run on an absolute shoestring.
    So in Iraq, I wouldn't say money is the major factor there 
but it may play a role in the 2018 elections in Iraq where they 
can----
    Mr. Rohrabacher But has the money gone--has the extra money 
that Iran has impacted on the pro, let's say, the Shi'ite 
military movements in Iraq?
    Mr. Knights. That's what I'm saying. I don't think it has 
had an impact there. They're not playing with money there.
    But in Syria, I think it's had a critical impact because 
Syria is a very expensive operation for Iran, which my 
colleagues might be able to detail a little more.
    Mr. Nerguizian. My comment would be narrowly in the context 
of Hezbollah and Lebanon.
    You have an organization that has relied on a sustained 
network around the world for its financing operations. It does 
not need a massive infusion of funding from Iran.
    Iran can choose to----
    Mr. Rohrabacher I'm not asking about a massive infusion. 
I'm saying that when somebody gets $100 billion in their hands 
and they are in touch with people who are engaged in conflicts, 
have the Iranians then used that money in those conflicts with 
their--the friends that in conflict?
    Mr. Knights. Precisely that's why they won't use it in a 
place like Lebanon. You have so much already invested over----
    Mr. Rohrabacher Okay. So they're not doing it in Lebanon?
    Mr. Knights. They don't need to, sir.
    Mr. Rohrabacher They--when you see that they're--your 
colleague there suggested they're doing that in however----
    Mr. Knights. In Syria, certainly.
    Mr. Rohrabacher With Syria, we are talking about. Now, what 
about----
    Mr. Knights. I would agree with Dr. Knights on that. That 
is the one area where, frankly, there needs to be--if you're 
Iran, if there are areas where you need to focus your financial 
resources beyond your own economy----
    Mr. Rohrabacher Okay. The others could get a chance to--is 
that money being used--$100 billion, we've given to a regime 
that basically thinks they are getting their direction from God 
and that the rest of us are infidels and they came to power 
chanting, ``Death to America''?
    Mr. Pollack. Congressman, I think the reason that we are 
all having difficulty with it is that the Iranian budget is 
large enough and the costs of these kinds of operations is 
small enough that we can't say specifically that the Iranians 
would use any money that they got as a result of the JCPOA for 
this versus that, right. We don't have access to the Iranian 
budget.
    Mr. Rohrabacher Money is fungible, right. If you----
    Mr. Pollack. Exactly.
    Mr. Rohrabacher [continuing]. Give somebody $100 billion or 
free up $100 billion that they now have to use, if they're 
using now some other money to murder people or to give support 
to organizations that go out and use violence and force and 
murder to, basically, push their agenda, well, then you have 
actually financed that even though the money didn't come 
directly--the dollar bills weren't the same dollar bills.
    Mr. Pollack. Again, we are experts. We are called to give 
you the truth as best we understand it. I think we are all 
reticent to say that yes, literally, this dollar went to this 
source as opposed to that source.
    But there certainly has been an increase in Iranian support 
over the last 2 years for various groups around the region. As 
my colleagues have pointed out----
    Mr. Rohrabacher Let me--various armed groups----
    Mr. Pollack. Correct.
    Mr. Rohrabacher [continuing]. Around the region. Okay. Now, 
let me--and before we go on, because I know I only got a couple 
minutes here--40 seconds. All right.
    Well, instead of that, let me just say there are Azaris in 
Iran who are not Persians and they are--and there are Baluch 
and there are Kurds--there are more Kurds, I understand, in 
Iran than there are in Iraq, for example.
    Doesn't it--for those of us who really want peace in Iran, 
doesn't it behove us not to just give--free up $100 billion for 
the regime that oppresses its people, but instead to try to 
help those interest--those various nationality groups that 
don't like the mullahs?
    Shouldn't we be, instead of--and how do you say, giving the 
mullahs more, shouldn't we actually be spending more time and 
effort trying to help those who oppose the mullahs like the 
groups I just mentioned?
    Mr. Pollack. I'll say, Congressman, those are clearly areas 
of great sensitivity to the Iranian regime. And if the United 
States is looking for ways to put pressure on Iran, those are 
things that would certainly constitute real pressure points for 
them.
    Mr. Rohrabacher We could do it----
    Mr. Poe. Gentleman's time has expired.
    Mr. Rohrabacher That's the bottom line of it. Thank you, 
Mr. Chairman.
    Mr. Poe. Gentleman's time has expired. Thank you, Mr. 
Rohrabacher.
    The Chair recognizes itself for 5 minutes, and I thank you 
all for being here.
    I want to try to summarize some of the things that all the 
other members have already pointed out.
    Before I do that, though, I want to recognize here in the 
audience Nazeen Hamamada, who is a Syrian refugee who has been 
tortured by the Syrian Government for over 15 months and is now 
here in the United States. Thank you for being here today.
    The ayatollah has made it clear that it's his goal to 
destroy Israel and then destroy the United States by any means 
necessary.
    Do any of you disagree that that is his goal? I believe him 
when he says that. Do any of you think oh, he's just making 
that up?
    Okay. I take it by your silence that most of you agree with 
that philosophy.
    The United States is involved in a lot of places, as has 
been pointed out, trying to, in essence, thwart the Iranian 
influence. The land bridge--some say that that land bridge is 
important to Iran because they then have a land route to 
Israel. That may or may not be true.
    Secretary Tillerson testified at a hearing in the Foreign 
Affairs Committee and I asked him the question, if it were the 
policy of the United States to have a regime change in Iran and 
he indicated in the affirmative, that it was the goal.
    He didn't say how. He just said regime change. I personally 
think that is the answer as well, as Mr. Zeldin pointed out.
    The people of Iran, in my opinion. Would like to control 
their own government and not be dictated by the mullahs and the 
ayatollah. That's the safest--safest way for there to be peace 
is in the regime change in Iran with the people getting to make 
those decisions.
    Why should the United States even be involved in thwarting 
Iranian influence in the Middle East? Why should it not just be 
our policy that's their problem--the Middle East? That's the 
Saudis' problem. That's the people in the Middle East--that's 
their problem.
    Except for Israel. Set that issue aside in our ally, 
Israel. Set that aside. Why should we be involved in any of 
these efforts?
    Dr. Knights, do you want to answer that question?
    Mr. Knights. It's always been the case that you may not be 
interested in the Middle East, but the Middle East becomes 
interested in you at some point.
    Whether it's terrorism coming out of the Middle East, 
whether it's nuclear weapons, whether it's proliferation of 
nuclear weapons between our allies, Saudi Arabia and Turkey, 
and maybe one day Egypt getting nuclear weapons, too--whether 
it's the energy resources coming out of the Middle East, these 
are all things that can affect America directly and have 
affected America directly, whether we wanted them to or not, 
and that'll continue to be the case.
    Mr. Poe. Anybody else want to weigh in on that? Dr. 
Pollack.
    Mr. Pollack. Simply echo Mike's points, and in particular, 
I want to emphasize the point that none of us likes to talk 
about, which is the region's energy resources and use the dirty 
word oil.
    While we now are exporting more than we import, the simple 
fact is that the global economy floats on a sea of oil, and as 
long as our critical trading partners remain dependent on oil 
and as long as the global oil market has an enormous component 
of Middle Eastern oil, we are going to have to care about the 
Middle East because it is going to affect our economy.
    We need to remember that whether we like it or not, our 
worst economic crises since the second World War had typically 
been preceded by some major fluctuation in the price of oil.
    Mr. Poe. Well, we are energy independent because we in 
Texas have more oil than we know what to do with and we sell it 
to anybody that'll buy it.
    But anyway, not to be lighthearted, I personally think that 
there are many reasons why the United States needs to be 
involved in the Middle East.
    I would just hope that the people--other countries in the 
Middle East would recognize that they have a responsibility 
because it's their region to, in a peaceful way, stabilize the 
region, not just for now but in the future as well.
    I mean, it's been--since '48 or before has been a powder 
keg, and I think there are a lot of economic reasons and 
political reasons why we should be involved there and thwart 
whatever influence we--thwart the influence of Iran, especially 
with its proxy groups. Some are better than others but at the 
end of the day we have to come to the conclusion, I think, the 
realization that Iran means it when they say they want to 
destroy us.
    And the long-term answer I don't think is a military one. 
But we have to figure out a way to solve this very complex 
massive and getting more difficult every day issue.
    I want to recognize the--Mr. Schneider as well. But I do 
need to excuse myself for another meeting as well, and Colonel 
Cook will take over in his military way as the chair in the 
subcommittee.
    So Mr. Schneider, the Chair recognizes you for 5 minutes.
    Mr. Schneider. Thank you, Chairman Poe, and I apologize for 
not being here for your public statements. I have reviewed your 
submitted statements and I appreciate very much what you've 
said, how you've said it, and have probably 4 to 5 hours of 
questions. I will try to squeeze them into 5 minutes.
    But, Dr. Knights, I will start with you. This really is for 
everyone. But you talk about Iran projecting its force in the 
region, and I missed the discussion of the map but it's pretty 
clear what this is showing in Iran's efforts.
    My colleague from Texas talked about why do we care. But 
Iran has a strategy. It has an objective that extends beyond 
its borders.
    It does affect not just our allies but our interests. And 
so, I guess, for the whole panel, beyond just saying we need to 
stand up to it, what specific steps would you advise to this 
administration, to Congress, to take to push back on Iran's 
malign influence in the region?
    Mr. Knights. Maybe moving down the line quickly, one of the 
things we need to do is to create a buffer zone in which there 
are no Iranian or Iranian-backed forces on the borders of 
Israel and southern Syria.
    We need to create a sustainable self-defensive pocket there 
that can ensure that Iranian-backed militias do not extend 
across another new huge swathe of Israel's border.
    We also need to help Iraq to push back on the Iranian-
backed militias that could potentially take over the country as 
a form of new Hezbollah or a new Revolutionary Guard within 
that country.
    Those would be the two main things. I also think we need to 
end the Yemeni war with the Gulf coalition because that's 
turning a group of sometimes allies of Iran into potential 
proxies of Iran.
    It's still at an early stage. The cement is not wet. We can 
still prevent something bad from happening there.
    Mr. Schneider. Just to clarify, you're drawing a 
distinction, I think it's important to point out, between 
allies and proxies. And allies have their own interests--
proxies operate on--I don't want to put words in your mouth.
    My assumption--allies have their own interests. Proxies 
operate under the instructions of the mullahs in Iran.
    Mr. Knights. Correct, and we need to act quickest where 
Iran has shallow-rooted influence--places like Yemen, Bahrain, 
Saudi Arabia.
    Mr. Nerguizian. Congressman, you have U.S. partners in the 
region that are starting to assert themselves in the context of 
their own national environment.
    In my own testimony, I focused specifically on the counter 
ISIS campaign of the Lebanese military, which was, to me, as 
someone who witnessed it first hand, exceptional in terms of 
its unity of effort, the lack of--lack of coordination with any 
third party.
    When you have a military that wants to do the heavy lifting 
in the region, when it wants to act responsibly, when it wants 
to add to the metrics of stability in the region. Partners like 
that, and I use the term partners--should be empowered.
    You don't empower them by not giving them the tools to be 
effective and by not thinking strategically over the long term. 
We cannot engage partners like the LAF and others in the region 
from fiscal year to fiscal year.
    We need to take a page out of the Iranian play book and 
think long term, as difficult as that is, about the kinds of 
relationships and friendships that the United States is trying 
to create.
    Mr. Schneider. When you say long-term, I think it's 
important. Tell me what time frame you have in mind that we 
should be thinking as policy makers in addressing what is 
looking backwards--conflicts that don't date decades or 
centuries but literally millennia.
    Mr. Nerguizian. I will use the example of the LAF again. 
The LAF is now thinking in 5- to 10-year increments about what 
kind of force it wants to become, and that's a realistic 
assessment of just how we should see countries like Lebanon, 
like Jordan, like Egypt, relative to U.S. engagement.
    You're looking at 5-, 10-year tranches where you have to 
have a coherent set of policy choices. Our friends in the 
United Kingdom do that very well.
    The United States needs to be much better doing that.
    Mr. Schneider. Mr. Pollack.
    Mr. Pollack. Congressman, first I want to agree with the 
comments of both of my colleagues. Both Mike and Aram have made 
excellent points.
    What I want to add to that is the importance of dealing 
with the underlying economic, social, and political problems of 
the Middle East.
    As I said in my opening remarks and my written remarks, 
Iran doesn't create the problems of the region. It simply 
exploits them. If you want to stop Iran, we need to help the 
countries of the region deal with these problems.
    Now, the great news is that we finally have allies in the 
region who are taking these problems seriously for the first 
time ever, in particular Saudi Vision 2030. We have no idea 
whether it's going to succeed.
    But we should all be praising the crown prince for 
beginning this process and we as a nation should be trying to 
help him to move it forward and create the conditions under 
which it has the best chance of success.
    Then there are other allies like Morocco and Jordan, who 
have been half-hearted at best. They need to be encouraged and 
enabled.
    But at the end of the day, the problem that we face is that 
for too long the Middle East has been faced with a choice 
between repression or revolution, and the Iranians take 
advantage of both and the right answer is the third way, which 
is reform. That is the way that you shut them out.
    Mr. Schneider. Ms. Dalton.
    Ms. Dalton. Great, if we still have time. Okay.
    Mr. Schneider. I'll say thank you, and we can--we can talk 
another time. I appreciate your comments. I think the 
importance of looking long term, beyond just the next quarter 
or year or, in our case, the next election, understanding that 
we have broad interests in the region that we need to work with 
our partners is critical.
    So thank you for that and I appreciate the time. I yield 
back.
    Mr. Cook [presiding]. Thank you.
    The Chair recognizes the gentleman from Massachusetts, the 
ranking member, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chair.
    I just want to--I have a quick question regarding Russia's 
involvement. Perhaps Ms. Dalton.
    How is it currently undermining stability--Russia--right 
now in terms of our security and stability and, you know, how 
is it opening up opportunities for Iran in the region and what 
can we do directly with Russia?
    Ms. Dalton. I think this is a really timely question, and 
the United States is only beginning to wrap its head around 
what the implications are of the Russian intervention into 
Syria in 2015.
    Certainly, Russia's support for Assad has allowed, as I 
believe you said in your opening remarks, Iran to not have to 
devote as many resources to support Assad because they have 
been working together and there is a convergence of interest 
when it comes to Syria that I think we have to see play out 
over time in terms of how replicable that relationship is going 
to be.
    Iran and Russia, of course, have a very mixed history 
dating back to the 19th century. They are not natural allies 
and there is still that sort of historic enmity that I think 
underlies the current relationship.
    But yet, what they share in common and I think what we need 
to not lose sight of is that they are both motivated by 
exploiting vulnerabilities and gaps in the region where U.S. 
presence has receded, where our relationships with partners has 
fractured, where governance is weak, and they are working 
together to exploit those gaps in ways that I think are going 
to be harmful for our interests and those of our allies and 
partners.
    Mr. Keating. They are also using that influence, as is 
Iran, for propaganda purposes in the area as well. What could 
the United States do--any of panellists--you know, to really 
better counter that propaganda influence? Because it really 
falls into line with our ability to not let them take advantage 
of these situations.
    Ms. Dalton. I will take a quick crack at it and then open 
it up.
    I think that, you know, while we need to not lose sight of 
this challenge, it's also important not to overly inflate their 
capabilities, their resourcing.
    Both of these countries are not necessarily economically 
set up well to be a superpower in the region. So, you know, not 
presenting them as a bogeyman looking for opportunities to use 
our own information and operations and working with partners in 
the region to expose the weaknesses from an economic 
perspective in terms of the long-term sustainability of these 
activities, I think, will be critical.
    Mr. Keating. Anyone else have a comment on that?
    Mr. Knights. As they say, sunshine is the best antiseptic. 
There's a lot that we can--there is a lot of information we've 
never used about Iranian-backed militias, and it's not gathered 
through sensitive means or at least they're not sensitive 
anymore--things we knew back from the days of Iraq when we were 
there.
    There's things we know about Iranian-backed militia leaders 
in Iraq, about the fact that they've killed so many Iraqi 
citizens--they have Iraqi blood on their hands.
    We can prove it. I don't think we expose enough.
    Mr. Keating. Right, and I do think, too, that the comment 
that both of their economies are not doing well certainly makes 
it right for us pointing that out and actually pointing out 
alternative areas with that--you know, with their way of life 
in those countries is not what it could be if they adopted a 
lot of our values--at least shared a lot of our values.
    So I want to thank the panel and I yield back.
    Mr. Cook. Thank you very much.
    On behalf of the Chair and the committee, I want to thank 
all four members.
    We covered a lot of subjects today, being very patient with 
us and we covered a lot of ground.
    Thank you again for being with us. This meeting is 
adjourned.
    [Whereupon, at 4:54 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Record
         
         
         
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
         
         
         
  
     Material submitted for the record by the Honorable Ted Poe, a 
   Representative in Congress from the State of Texas, and chairman, 
         Subcommittee on Terrorism, Nonproliferation, and Trade


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
